TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   More Complete and Accurate Data Are
                 Needed to Assess the Impact of Actions to
                 Address Compliance Reporting of State and
                         Local Government Entities



                                           June 8, 2007

                              Reference Number: 2007-10-081




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 8, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – More Complete and Accurate Data Are Needed to
                               Assess the Impact of Actions to Address Compliance Reporting of
                               State and Local Government Entities (Audit # 200610045)

 This report presents the results of our review to determine the impact of actions taken by the
 Federal, State, and Local Governments office (hereafter referred to as the FSLG office or the
 Office) to improve State and local government entities’ compliance with information return
 filing and backup withholding1 requirements. This audit was conducted as part of the Treasury
 Inspector General for Tax Administration’s Office of Audit Fiscal Year 2007 Annual Audit Plan.
 The Internal Revenue Code requires any service recipient, including government agencies, to file
 with the Internal Revenue Service (IRS) an annual information return for payments made to any
 person for services totaling $600 or more during a calendar year.2 Due to prior attention to the
 compliance reporting of Federal Government agencies by the Government Accountability
 Office,3 our review focused on information return filing and backup withholding compliance by
 State and local government entities.



 1
   Internal Revenue Code Section 3406 (2005) requires that payers withhold Federal income tax and forward it to the
 Internal Revenue Service if a payee fails to provide the payer with a correct Taxpayer Identification Number and,
 upon notice, fails to provide a correct Taxpayer Identification Number. This is known as backup withholding.
 2
   Internal Revenue Code Section 6041A (2005).
 3
   A Government Accountability Office review (Tax Administration: More Can Be Done to Ensure Federal
 Agencies File Accurate Information Returns (GAO-04-74, dated December 2003)) of Federal Government agencies
 found significant compliance issues involving information return filing and backup withholding. Specifically, about
 $5 billion in payments from agencies within 3 Federal Government departments to 152,000 payees during Tax
 Years 2000 and 2001 were not reported to the IRS on a Miscellaneous Income (Form 1099-MISC) information
 return as required. A tax year is an annual accounting period for keeping records and reporting income and
 expenses.
                     More Complete and Accurate Data Are Needed to Assess the
                       Impact of Actions to Address Compliance Reporting of
                               State and Local Government Entities



Impact on the Taxpayer
Payments by FSLG office customers represent a large part of the national economy. Annually,
Federal, State, and local governments purchase goods and services of more than $2.5 trillion that
potentially affect information return and backup withholding requirements. Because of the
potential volume and dollar amount of the information returns issued by governments, any
omissions could affect the tax gap4 if the income paid by governments is not reported to the IRS
and reflected on the individuals’ tax returns. In addition to the immediate compliance concern,
this noncompliance threatens the perceptions of fairness and accountability that are at the
foundation of the voluntary tax compliance system.

Synopsis
The FSLG office is taking some actions to address State and local government entities’
information return filing and backup withholding requirements, including performing research
during the case selection process to identify potential noncompliance in these areas. In addition,
information return filing and backup withholding compliance by State and local government
entities was being addressed through a combination of focused outreach efforts and the
development of new educational products in Fiscal Years 2005 and 2006. Although the Office
has made progress in this area, its database contained inaccurate and incomplete information
related to the disposition and productivity in 21 (30 percent) of 71 cases we reviewed. As a
result, we could not determine the overall impact of actions taken by the FSLG office to improve
State and local government entities’ compliance with information return filing and backup
withholding requirements. Continued emphasis by the Office in this area and more accurate
information related to its compliance check and examination efforts will provide assurance that
Office customers file all necessary information returns and tax revenue is accurately reported as
required.

Recommendations
We recommended the Director, FSLG, (1) reemphasize and update existing guidelines for
completing the case selection survey sheet used to track the disposition and productivity of
closed compliance contacts, (2) update the FSLG office’s database with the compliance
information on the large non-Federal Government entity examinations closed in Fiscal Years
2005 and 2006 and ensure future initiatives are tracked on the database, and (3) review our
analyses of State and local government entities’ information return filings for


4
  The difference between the tax amounts taxpayers pay voluntarily and on time and what they should pay under the
law.
                                                                                                                2
                   More Complete and Accurate Data Are Needed to Assess the
                     Impact of Actions to Address Compliance Reporting of
                             State and Local Government Entities



Tax Years 2003 – 2005 to determine if potential compliance activities are warranted and if
revisions to the current classification process are necessary to better identify potential nonfilers.

Response
The Commissioner, Tax Exempt and Government Entities Division, agreed with the finding and
recommendations contained in the report. The FSLG office has reemphasized existing
guidelines on the completion of the case selection survey sheet and plans to issue an
all-employee memorandum to provide clarity and additional direction. The Office has identified
all large non-Federal Government entity examinations completed in Fiscal Years 2005 and 2006
that should be tracked on its database, plans to gather and input the related compliance
information, and plans to track future initiatives on the database as appropriate. Finally, the
FSLG office plans to review the analysis we completed relating to State and local government
entities’ filings of Miscellaneous Income (Form 1099-MISC) information returns to determine if
compliance activities are warranted. The Office plans to consider developing a possible
Form 1099-MISC nonfiler compliance project. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                        3
                        More Complete and Accurate Data Are Needed to Assess the
                          Impact of Actions to Address Compliance Reporting of
                                  State and Local Government Entities




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          More Complete and Accurate Data Are Needed to Assess the Impact of
          Actions Being Taken to Address Information Return Reporting and
          Backup Withholding Compliance.................................................................Page 3
                    Recommendation 1:..........................................................Page 8

                    Recommendations 2 and 3: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 17
       More Complete and Accurate Data Are Needed to Assess the
         Impact of Actions to Address Compliance Reporting of
                 State and Local Government Entities




                     Abbreviations

FSLG           Federal, State, and Local Governments

FY             Fiscal Year

IRS            Internal Revenue Service

TIN            Taxpayer Identification Number
                      More Complete and Accurate Data Are Needed to Assess the
                        Impact of Actions to Address Compliance Reporting of
                                State and Local Government Entities




                                             Background

The Federal, State, and Local Governments office (hereafter referred to as the FSLG office or the
Office)1 is responsible for providing top-quality service to more than 87,000 Federal Government
agencies, State Governments, local governments, and quasi-governmental entities by helping
them understand and comply with the tax laws. FSLG office customers are generally not subject
to Federal income tax but are required to file information returns and to file and pay employment
taxes for their more than 23 million employees (20 percent of the United States workforce). The
Office focuses its compliance efforts to ensure employment tax returns are accurately filed and
paid and information returns are accurately filed. FSLG office entities pay wages in excess of
$760 billion and pay employment taxes in excess of $200 billion annually.
The Internal Revenue Code requires any service recipient, including government agencies, to file
with the Internal Revenue Service (IRS) an annual information return for payments made to any
person for services totaling $600 or more during a calendar year.2 Payments to corporations for
certain services provided must also be reported, such as attorneys’ fees and medical and health
care payments. In addition, Federal Government executive agencies must report all payments for
services provided by vendors, including payments made to corporations. A Miscellaneous
Income (Form 1099-MISC) information return is used to report service payments and includes
the names, addresses, and Taxpayer Identification Numbers (TIN)3 of the payer and the payee
and the total amount paid during the year for the services provided. The IRS enters information
on the Forms 1099 into its computer systems and matches these data with the payees’ income tax
returns to determine whether taxpayers have filed returns and reported all of their income.
A correct TIN is necessary to enable the IRS to match these returns.
Although government agencies should be models of tax compliance, there are significant
concerns in this area. A December 2003 Government Accountability Office review4 of Federal
Government agencies found significant compliance issues involving information return filing
and backup withholding.5 Specifically, the Government Accountability Office found that about
$5 billion in payments from agencies within 3 Federal Government departments to


1
  The FSLG office is part of the Government Entities function in the Tax Exempt and Government Entities Division.
2
  Internal Revenue Code Section 6041A (2005).
3
  The TIN is a nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of
the taxpayer, the TIN is an Employer Identification Number, a Social Security Number, or an Individual TIN.
4
  Tax Administration: More Can Be Done to Ensure Federal Agencies File Accurate Information Returns
(GAO-04-74, dated December 2003).
5
  Internal Revenue Code Section 3406 (2005) requires that payers withhold Federal income tax and forward it to the
IRS if a payee fails to provide the payer with a correct TIN and, upon notice, fails to provide a correct TIN. This is
known as backup withholding.
                                                                                                              Page 1
                      More Complete and Accurate Data Are Needed to Assess the
                        Impact of Actions to Address Compliance Reporting of
                                State and Local Government Entities



152,000 payees during Tax Years6 2000 and 2001 were not reported to the IRS on
Forms 1099-MISC as required. Approximately 8,800 of these payees had received $421 million
in payments yet had failed to file tax returns for these years. In addition, the Government
Accountability Office stated that approximately $20 billion in payments reported to the IRS on
170,000 information returns for Tax Years 2000 and 2001 included invalid vendor7 TINs. As a
result of these concerns, the FSLG office began an initiative to address TIN matching by Federal
Government agency vendors.
To support the IRS and the Tax Exempt and Government Entities Division strategic goals of
enhancing enforcement of the tax law, the FSLG office committed in its Fiscal Year (FY) 2006
Work Plan to expand compliance enforcement activity and to understand and improve
compliance. To accomplish this goal, the Office is working with government entities to improve
compliance with backup withholding requirements and information returns reporting. Reporting
compliance (the proper filing of Forms 1099) is being addressed through field compliance
contacts.8 Also, in an effort to reduce the tax gap,9 the FY 2008 Federal budget requested by the
President contained several new reporting proposals for tax changes involving payments that are
subject to information return filing. Due to prior attention to compliance reporting of Federal
Government agencies by the Government Accountability Office, our review focused on the
information return filing and backup withholding compliance by State and local government
entities.
This review was performed at the Tax Exempt and Government Entities Division Headquarters
in Washington, D.C., and the FSLG office Compliance and Program Management office in
Austin, Texas, during the period August 2006 through January 2007. The audit was conducted
in accordance with Government Auditing Standards. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




6
  A tax year is an annual accounting period for keeping records and reporting income and expenses.
7
  A vendor is a company that supplies parts or service to another company.
8
  Compliance contact cases collectively refer to examinations and compliance checks. A compliance check is a
contact with the customer that involves a review of filed information and tax returns of the entity. A compliance
check does not directly relate to determining a tax liability for any particular tax period, and a customer may legally
choose not to participate in a compliance check.
9
  The difference between the tax amounts taxpayers pay voluntarily and on time and what they should pay under the
law.
                                                                                                               Page 2
                     More Complete and Accurate Data Are Needed to Assess the
                       Impact of Actions to Address Compliance Reporting of
                               State and Local Government Entities




                                      Results of Review

More Complete and Accurate Data Are Needed to Assess the Impact
of Actions Being Taken to Address Information Return Reporting and
Backup Withholding Compliance
FSLG office management is taking some actions to address State and local government entities’
compliance with information return filing and backup withholding requirements. These actions
are part of the Office’s increased emphasis since FY 2004 to focus more of its resources on
compliance activities. The Office is performing research during the case selection process to
identify potential noncompliance relating to information reporting and backup withholding.
Specifically, Office personnel run certain predefined Returns Inventory and Classification
System10 queries to identify areas of noncompliance then judgmentally prioritize these cases for
assignment to the field based on potential noncompliance indicators. In addition, information
return filing and backup withholding compliance by State and local government entities was
being addressed through a combination of focused outreach efforts and the development of new
educational products in FYs 2005 and 2006.
In response to a prior Treasury Inspector General for Tax Administration report,11 FSLG office
management had acknowledged that effective workload planning for compliance contact cases is
a challenge due to the lack of Office compliance benchmarks and baseline measures developed
to date. Management had indicated they did not have accurate and statistically valid data related
to compliance levels and indicators of noncompliance to assist them in selecting productive cases
for review. As a result of our recommendations, management initiated changes in March 2006 to
improve their ability to track results of compliance activities and allow for more systemic
analysis of past compliance work. Although the FLSG office has made progress in this area, we
determined the Office’s database12 contained inaccurate or incomplete information related to case
disposition and productivity in 21 (30 percent) of 71 cases reviewed in our sample.13 As a result,


10
   This System contains return and filer information related to the filing and processing of employee plan, exempt
organization, and government entity forms.
11
   The Federal, State, and Local Governments Office Can Improve the Workload Selection Process to Increase
Effectiveness (Reference Number 2006-10-073, dated April 2006).
12
   The FSLG office database contains approximately 7,800 records and provides feedback on the quality and
productivity of the case selection process and the results of the compliance activities.
13
   We chose and reviewed a sample of 83 cases to determine if the cases included a review for information return
filing and backup withholding issues. A total of 71 of these 83 cases were on the Office database; we reviewed the
71 cases to determine if case information and results were properly recorded on the database. See Appendix I for
detailed information on our sampling methodology.
                                                                                                           Page 3
                  More Complete and Accurate Data Are Needed to Assess the
                    Impact of Actions to Address Compliance Reporting of
                            State and Local Government Entities



we could not determine the overall impact of actions taken by the Office to improve State and
local government entities’ compliance with information return filing and backup withholding
requirements.
Payments by FSLG office customers represent a large part of
the national economy. Because of the potential volume and
dollar amount of the information returns issued by                  Annually, Federal, State,
                                                                     and local governments
governments, any omissions could affect the tax gap if the            purchase goods and
income paid by governments is not reported to the IRS and            services of more than
reflected on the individuals’ tax returns. In addition to the     $2.5 trillion that potentially
immediate compliance concern, this noncompliance threatens          affect information return
the perceptions of fairness and accountability that are at the      and backup withholding
                                                                          requirements.
foundation of the voluntary tax compliance system.
Continued emphasis by the FSLG office in this area and more
accurate information related to its compliance check and
examination efforts will provide assurance that Office customers file all necessary information
returns and tax revenue is accurately reported as required.

The FSLG office is taking actions to address information return filing and backup
withholding requirements
Based on reviews of 83 compliance check and examination cases, we determined FSLG office
specialists generally address information return filing and backup withholding during compliance
checks and examinations. Specifically, documentation in the case files showed specialists
reviewed the State or local government entities’ filings of Forms 1099-MISC and processes for
addressing information return filing and backup withholding requirements. When
noncompliance was identified, the specialists generally addressed the specific issues with the
government entities by issuing discrepancy letters, securing delinquent returns, and/or assessing
additional tax and penalties, when appropriate. In addition, documentation in both the
compliance check and examination case files indicated specialists generally addressed the
government entities’ processes for addressing backup withholding, particularly if
mismatched/missing TINs were identified. We determined specialists (1) made additional tax
assessments in 24 (69 percent) of the 35 sampled examination cases reviewed and (2) issued
discrepancy letters identifying findings and made corrective recommendations in 25 (52 percent)
of the 48 sampled compliance check cases.
We also determined FSLG office management uses a case selection system that includes specific
criteria to identify potential noncompliance as it relates to information return filing and backup
withholding requirements. This process includes performing Returns Inventory and
Classification System queries, judgmentally prioritizing cases based on potential noncompliance
indicators identified from those queries, and determining the appropriate type of compliance
activity to conduct (examination versus compliance check). Specifically, Office personnel

                                                                                            Page 4
                     More Complete and Accurate Data Are Needed to Assess the
                       Impact of Actions to Address Compliance Reporting of
                               State and Local Government Entities



analyze information return and backup withholding data to select compliance cases for Office
field specialists.
The FSLG office Work Plan for FY 2006 states the Office will address key areas of
noncompliance through compliance activities and a combination of focused outreach and
development of new educational products. We determined the Office had performed education
and outreach activities to improve State and local government entities’ information return filing
and backup withholding compliance. Specifically, the Office participated in 228 activities
designed to increase State and local government entities’ awareness of filing compliance issues
during FYs 2005 and 2006. We judgmentally sampled 20 of these outreach activities and
determined Office specialists presented information and materials specifically related to filing
requirements for Forms 1099-MISC, the types of payments that should be reported on Forms
1099-MISC, the definition of backup withholding, what payments are subject to backup
withholding, and when backup withholding is required. Office management indicated outside
entities may request outreach through Office specialists, or specialists may contact outside
organizations and offer to conduct presentations on topics of interest to the organizations.
In June 2006, FSLG office management put various pertinent reference guides on the IRS
Internet web site (IRS.gov) for State and local government entities’ officials to access when
performing research. The web site includes information such as the Public Employer Tax Guide,
the Taxable Fringe Benefits Guide, fact sheets on information return filing and backup
withholding for State and local government entities, and a “toolkit” for government entity payroll
officers. The toolkit was developed in response to a recommendation by the Advisory
Committee on Tax Exempt and Government Entities14 to provide on the IRS web site a single
location for government entity employers to obtain information about tax withholding and
compliance issues. In addition, the Office publishes a semi-annual Newsletter that provides
articles on information return filing that is available on IRS.gov; it is transmitted to thousands of
subscribers. Although the Office does not measure the impact of its outreach activities on
compliance, management believes their outreach efforts address common questions from
government entities on tax withholding and compliance issues.

More complete and accurate data are needed to assess the impact of the
FSLG office’s compliance work
Our review of 71 sampled compliance checks and examinations of State and local government
entities determined case information and results were not always accurately or completely
recorded on the FSLG office database used to track compliance information. We also
determined the Office database does not include the results for some examinations of large
non-Federal Government entities closed in FYs 2005 and 2006.


14
  This Committee is a formal body of external stakeholders in the specialized areas of tax-exempt organizations;
employee retirement plans; tax-exempt bonds; and Federal, State, local and Indian tribal governments.
                                                                                                           Page 5
                     More Complete and Accurate Data Are Needed to Assess the
                       Impact of Actions to Address Compliance Reporting of
                               State and Local Government Entities



Specifically, our review of 71 sampled cases determined 21 (30 percent) had inaccurate and/or
incomplete database information about the disposition and productivity of the compliance
activities (compliance checks and examinations).15 The Office database contained the following
inaccurate or incomplete information:16
     •   The reason why the case was selected for compliance work (four cases).
     •   The productivity of the case selection criteria (eight cases).
     •   The number of delinquent information returns secured and/or the associated payments
         made (seven cases).
     •   Whether penalties or employment taxes were assessed (four cases).
     •   The final disposition of the compliance checks (two cases).
     •   Whether educational actions were completed by the field (three cases).
This information would assist FLSG office management in determining the case selection criteria
that resulted in identification of the most productive casework, provide baseline measures of the
level of noncompliance identified, and identify actions taken to improve the noncompliance.
The database inaccuracies and omissions in the specific case reviews can be attributed mostly to
improper completion of the survey sheets by Office specialists, oversights during input of the
case closing information to the database, and possible transcription errors.
In addition, FSLG office management had committed to implementing a compliance program
that addresses large non-Federal Government entities in FY 2005 and plans to continue this
strategic initiative into FY 2007. These large non-Federal Government entities, with annual
payrolls in excess of $40 million, have generally never been examined.17 These organizations
employ over 80 percent of all non-Federal Government workers and are large enough to have a
significant impact on the Social Security and Medicare trust funds. However, we determined the
Office database did not include the results of some examinations of large non-Federal
Government entities closed in FYs 2005 and 2006. Specifically, we obtained inventory lists
from Office management and identified 26 cases representing 23 unique large non-Federal
Government entities selected for examination during the Office case selection process that were
closed in FYs 2005 and 2006 (as of July 20, 2006). We determined 19 of these 26 cases shown



15
   See Appendix IV for details.
16
   The identified issues total more than the 21 cited cases because some cases involved more than 1 inaccurate or
incomplete issue.
17
   The FSLG office was established in FY 2000 as part of the IRS’ modernization process. As a result, during the
initial years, the Office focused primarily on outreach and education to help customers understand IRS filing and
reporting requirements and how to accurately and timely file tax and any other required returns. Beginning in
FY 2004, the Office took actions to achieve a better balance between educational and compliance activities.
                                                                                                            Page 6
                      More Complete and Accurate Data Are Needed to Assess the
                        Impact of Actions to Address Compliance Reporting of
                                State and Local Government Entities



on the Office inventory lists had not been recorded on the Office database as of that date.18
Office management believed these cases were not recorded on the database because they were
initiated before implementation of the database and the case selection survey sheet.
FSLG office management should ensure the Office database contains accurate and complete
compliance information about large non-Federal Government entities, to identify future
compliance actions and address customer outreach and education. Office management cannot
accurately assess the effectiveness of their compliance efforts, or whether the cases selected are
identifying significant areas of noncompliance that can be addressed by future education and
compliance activities, if the database information is inaccurate and incomplete. By ensuring
complete and accurate information is captured about compliance activities, management will
have reliable and sufficient information for future analysis. This should enable them to use
resources more productively by focusing on the returns with the highest risk of noncompliance,
identifying potential issues for future compliance action, and addressing customer education
needs.

Analysis of the IRS computer system identified potential information reporting
noncompliance
FSLG office personnel analyze information return filing and backup withholding data during the
case selection process using Returns Inventory and Classification System queries to identify
potential noncompliance by Federal, State, and local government agencies. Cases with potential
noncompliance indicators are selected for compliance activity based on results of the Returns
Inventory and Classification System queries.
Our analysis of Form 1099-MISC data for Tax Years 2003 through 2005 identified from IRS
Business Master File19 and Payer Master File20 data showed filing trends that may be indicative
of information return filing noncompliance. We did not determine whether these entities were
still in existence or should have filed Forms 1099 or whether the FSLG office had previously
identified any of these entities during its case selection process. However, we identified the
following general indicators of noncompliance related to State and local government entities:
     •   Some did not file any Forms 1099-MISC for Tax Years 2003 through 2005.
     •   Some filed Forms 1099-MISC for Tax Years 2003 and 2004 but did not file
         Forms 1099-MISC for Tax Year 2005.



18
   See Appendix IV for details.
19
   The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
20
   The IRS database that consists of a list of business and individual entities filing Form 1099 (this is the information
return series of tax forms). The file also contains information for each payer on penalties proposed and assessed.
                                                                                                                Page 7
                   More Complete and Accurate Data Are Needed to Assess the
                     Impact of Actions to Address Compliance Reporting of
                             State and Local Government Entities



   •    Some filed Forms 1099-MISC for Tax Years 2003 and 2005 but did not file
        Forms 1099-MISC for the intervening year (Tax Year 2004).
Figure 1 summarizes the filing trends for 81,080 State and local government entities we
reviewed.
 Figure 1: State and Local Government Entities’ Filing Trends (Form 1099-MISC)

                                   Were Forms 1099-MISC filed?

                                                                     Number of Entities
               Tax Year          Tax Year          Tax Year           With the Various
                 2003              2004              2005             Filing Trends for
                                                                    Tax Years 2003-2005

                   Yes              Yes                No                     2,267

                   Yes               No               Yes                     1,338

                   No               Yes               Yes                     2,757

                   No               Yes                No                      979

                   Yes               No                No                     1,714

                   No                No               Yes                     2,208

                   No                No                No                    24,528
            Source: Our analysis of the IRS Payer Master File information relating to State and
            local government entities’ filings of Forms 1099-MISC for Tax Years 2003 – 2005.

At the end of our fieldwork, we provided the FSLG office Compliance and Program
Management office with these results. Office management agreed to review this information to
determine if any actions are warranted.

Recommendations
The Director, FSLG, should:
Recommendation 1: Reemphasize and update existing guidelines on how the case selection
survey sheet should be completed. This should include guidance on:
    •   Identifying the specific criteria used to select the compliance contact.
    •   Reporting on the productivity of each case selection criterion used.


                                                                                                  Page 8
                   More Complete and Accurate Data Are Needed to Assess the
                     Impact of Actions to Address Compliance Reporting of
                             State and Local Government Entities



    •   Reporting accurate and complete results of the compliance contacts, such as the number
        of delinquent information returns secured and the associated payments made, whether
        penalties or employment taxes were assessed, and the final disposition of the case.
    •   Ensuring a separate case selection survey sheet is completed, when appropriate, for
        compliance contacts to ensure case results are separately tracked on the Office database.
        Management’s Response: IRS management agreed with this recommendation. The
        FSLG office reemphasized the existing guidelines on how the case selection survey sheet
        should be completed during its annual Continuing Professional Education meeting held
        the week of May 1 – 3, 2007. In addition, the Office has reviewed the existing
        instructions related to completion of the case selection survey and plans to issue an
        all-employee memorandum to provide clarity and additional direction.
Recommendation 2: Update the FSLG office database with the compliance information on
the large non-Federal Government entity examination cases completed in FYs 2005 and 2006
that should be tracked on the database and ensure any future initiatives are tracked on the
database as appropriate.
        Management’s Response: IRS management agreed with this recommendation. The
        FSLG office has identified all large non-Federal government entity examinations
        completed in FYs 2005 and 2006 that should be tracked on its database. The Office plans
        to gather and input compliance information to the database for all cases on which
        compliance information has not been recorded and to track future initiatives on the
        database as appropriate.
Recommendation 3: Review our analyses of the IRS computer systems relating to State and
local government entities’ filings of Forms 1099-MISC for Tax Years 2003 – 2005 to determine
if potential compliance activities for these entities are warranted and if revisions to the current
classification process or additional data analyses are necessary to better identify potential
nonfilers.
        Management’s Response: IRS management agreed with this recommendation. The
        FSLG office plans to review our analysis of State and local government entities’ filings
        of Forms 1099-MISC to determine if compliance activities are warranted. The Office
        also plans to take into account the results of this analysis as it considers (1) developing a
        possible Form 1099-MISC nonfiler compliance project and (2) whether the results of the
        analysis may contribute to case selection criteria during the regular classification process.




                                                                                              Page 9
                      More Complete and Accurate Data Are Needed to Assess the
                        Impact of Actions to Address Compliance Reporting of
                                State and Local Government Entities



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine the impact of actions taken by the FSLG office (also
referred to as the Office) to improve State and local government entities’ compliance with
information return filing and backup withholding1 requirements. We determined the following
internal controls2 were relevant to our objective: the FSLG office’s policies, procedures, and
practices for improving State and local government entities’ information return filing and backup
withholding compliance. We reviewed these controls by interviewing Office management and
analyzing the Office database3 and documentation related to Office compliance contacts. We did
not identify any significant material weaknesses. To accomplish the audit objective, we:
I.       Determined what actions the FSLG office had planned or completed to improve State and
         local government entities’ information return filing and backup withholding compliance.
         A. Interviewed responsible Office personnel to determine the actions planned or
            completed to improve State and local government entities’ information return filing
            and backup withholding compliance in FYs 2005 and 2006.
         B. Determined whether closed compliance check cases and examinations4 included a
            review of information return filing and backup withholding issues and whether case
            information was properly recorded on the Office database.
             1. Reviewed a total sample of 83 compliance check and examination cases (from a
                total population of 290 cases) to determine whether the cases included a review
                for information return filing and backup withholding issues. We used a random
                sampling methodology for Steps I.B.1.a) - c) and Step I.B.1.e) to ensure each
                compliance check or examination case had an equal chance of being selected; this


1
  Internal Revenue Code Section 3406 (2005) requires that payers withhold Federal income tax and forward it to the
IRS if a payee fails to provide the payer with a correct TIN and, upon notice, fails to provide a correct TIN. This is
known as backup withholding.
2
  Internal controls relate to management’s plans, methods, and procedures used to meet its mission, goals, and
objectives; include the processes and procedures for planning, organizing, directing, and controlling program
operations; and include the systems for measuring, reporting, and monitoring program performance.
3
  The FSLG office database contains approximately 7,800 records and provides feedback on the quality and
productivity of the case selection process and the results of the compliance activities.
4
  Compliance contact cases collectively refer to examinations and compliance checks. A compliance check is a
contact with the customer that involves a review of filed information and tax returns of the entity. A compliance
check does not directly relate to determining a tax liability for any particular tax period, and a customer may legally
choose not to participate in a compliance check.
                                                                                                              Page 10
                      More Complete and Accurate Data Are Needed to Assess the
                        Impact of Actions to Address Compliance Reporting of
                                State and Local Government Entities



                  enabled us to obtain sufficient evidence to support our results. We had planned to
                  review all of the cases for Step I.B.1.d). The sample consisted of:
                  a) Twenty-eight of 58 completed compliance check cases closed during
                     April 1, 2006, through July 20, 2006, on the Office database.
                  b) Nineteen of 26 completed examination cases closed during April 1, 2006,
                     through July 20, 2006, on the Office database.
                  c) Twelve of 139 examinations involving large non-Federal Government entities
                     closed during FYs 2005 and 2006 (as of August 29, 2006) that may have
                     involved information return filing and/or backup withholding issues. These
                     cases were sampled from automated inventory lists maintained by Office
                     personnel.
                  d) Four of seven examination cases involving large non-Federal Government
                     entities that were closed during FY 2006 (as of July 20, 2006). These cases
                     were identified through review of the Office database. We requested all seven
                     cases identified on the database but did not obtain three of the seven case files
                     from the IRS for our review. Two of the cases had been transferred from the
                     Federal Records Center to other IRS personnel. We did not receive a response
                     for the third case.
                  e) Twenty of 60 follow-up compliance check cases closed as of July 31, 2006,
                     associated with the Office project that had been initiated to follow up on prior
                     year compliance check cases. These cases were on the Office database.
             2. Reviewed the 71 compliance check and examination cases that were on the Office
                database (from Steps I.B.1.a), b), d) and e)) to determine whether case
                information and results were properly recorded on the database.
         C. Identified State and local government entities that may be noncompliant with
            information return filing.
             1. Requested a data extract from the Treasury Inspector General for Tax
                Administration Office of Information Technology that identified 81,080 State and
                local government entities on the Business Master File.5 We performed checks to
                validate the accuracy of the extracted data and found no inaccuracies or missing
                information in the data records reviewed. In addition, we requested separate data
                extracts from the Payer Master File6 on the number of Miscellaneous Income


5
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
6
  The IRS database that consists of a list of business and individual entities filing Form 1099 (this is the information
return series of tax forms). The file also contains information for each payer on penalties proposed and assessed.
                                                                                                               Page 11
                       More Complete and Accurate Data Are Needed to Assess the
                         Impact of Actions to Address Compliance Reporting of
                                 State and Local Government Entities



                    (Form 1099-MISC) information returns filed for Tax Years7 2003 through 2005
                    for each of the 81,080 State and local government entities identified on the
                    Business Master File. We performed tests and validated the accuracy of the
                    extracted data. The Payer Master File data were then analyzed to identify Form
                    1099-MISC filing trends that may be indicative of information return filing
                    noncompliance. We determined with reasonable assurance that we could rely on
                    the filing trends of the State and local government entities identified.
II.        Determined whether FSLG office management had planned or completed any education
           and outreach activities in FYs 2005 and 2006 to improve State and local government
           entities’ information return filing and backup withholding compliance.
           A.       Sampled 20 of the 228 education and outreach activities performed in FYs 2005
                    and 2006 to determine whether the activities were designed to increase State and
                    local government entities’ awareness of filing compliance issues. We used a
                    judgmental sample due to time constraints and because we did not plan to project
                    the results to the population.




7
    A tax year is an annual accounting period for keeping records and reporting income and expenses.
                                                                                                       Page 12
                 More Complete and Accurate Data Are Needed to Assess the
                   Impact of Actions to Address Compliance Reporting of
                           State and Local Government Entities



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Gerald T. Hawkins, Acting Director
Jeffrey M. Jones, Audit Manager
Thomas Seidell, Acting Audit Manager
Theresa Berube, Lead Auditor
Mike McGovern, Auditor
Carol Rowland, Auditor
Judith Harrald, Information Technology Specialist




                                                                                    Page 13
                 More Complete and Accurate Data Are Needed to Assess the
                   Impact of Actions to Address Compliance Reporting of
                           State and Local Government Entities



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Office of Federal, State, and Local Governments, Tax Exempt and Government Entities
Division SE:T:GE:FSL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Governments Entities
Division SE:T:CL




                                                                                     Page 14
                      More Complete and Accurate Data Are Needed to Assess the
                        Impact of Actions to Address Compliance Reporting of
                                State and Local Government Entities



                                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 40 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained the following 71 randomly sampled compliance check and examination cases1 to
determine if case information was properly recorded on the FSLG office (also referred to as the
Office) database:2
    •    Twenty-eight of 58 completed compliance check cases closed during April 1, 2006,
         through July 20, 2006.
    •    Nineteen of 26 completed examination cases closed during April 1, 2006, through
         July 20, 2006.
    •    Four of seven examination cases involving large non-Federal Government entities that
         were closed during FY 2006 (as of July 20, 2006).
    •    Twenty of 60 closed follow-up compliance check cases closed as of July 31, 2006,
         associated with the Office project that had been initiated to follow up on prior year
         compliance check cases.
Based on our review of the sampled cases, we determined 21 of the cases had inaccurate and/or
incomplete information on the FSLG office database related to case disposition and productivity.
In addition, we determined the FSLG office had implemented a compliance program to address
large non-Federal Government entities. However, the Office database did not include the results
for some of the examinations closed in FYs 2005 and 2006.

1
  Compliance contact cases collectively refer to examinations and compliance checks. A compliance check is a
contact with the customer that involves a review of filed information and tax returns of the entity. A compliance
check does not directly relate to determining a tax liability for any particular tax period, and a customer may legally
choose not to participate in a compliance check.
2
  The FSLG office database contains approximately 7,800 records and provides feedback on the quality and
productivity of the case selection process and the results of the compliance activities.
                                                                                                              Page 15
                  More Complete and Accurate Data Are Needed to Assess the
                    Impact of Actions to Address Compliance Reporting of
                            State and Local Government Entities



Specifically, the records for 19 of 26 examination cases (representing 23 unique large
non-Federal Government entities) closed in FYs 2005 and 2006 were not recorded on the Office
database. The database should have included the specific criteria used to select the cases for
review, whether the criteria were productive, the compliance issues addressed, and the closing
results of the compliance contact (e.g., the number of delinquent returns secured and the dollar
amounts and whether penalties and or employment taxes were asserted when applicable).
In total, we found 40 taxpayer accounts (21 + 19 = 40) for which information was inaccurate
and/or incomplete on the FSLG office database.




                                                                                         Page 16
    More Complete and Accurate Data Are Needed to Assess the
      Impact of Actions to Address Compliance Reporting of
              State and Local Government Entities



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 17
More Complete and Accurate Data Are Needed to Assess the
  Impact of Actions to Address Compliance Reporting of
          State and Local Government Entities




                                                    Page 18
More Complete and Accurate Data Are Needed to Assess the
  Impact of Actions to Address Compliance Reporting of
          State and Local Government Entities




                                                    Page 19
